No. 19-

IN THE

Ou,prente Court of tbe Enitert iptateo
FACEBOOK, INC.,
Petitioner,
v.
NIMESH PATEL, ADAM PEZEN, AND CARLO LICATA,
INDIVIDUALLY AND ON BEHALF OF ALL OTHERS
SIMILARLY SITUATED,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,987 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on December 2, 2019.

/ 2
Colin Casey Hog
Wilson-Epes Printing Co., Inc.

